 DEPARTMENT OF HOMELAND SECURITY
        Office of Inspector General


              Review of Controls Over the Export of 

                    Chemical and Biological 

                         Commodities 

                          (Redacted)





 Notice: The Department of Homeland Security, Office of Inspector General, has redacted this
 report for public release. The redactions are identified as (b)(2), comparable to 5 U.S.C. §
 552(b)(2). A review under the Freedom of Information Act will be conducted upon request.




                                Office of Audits

OIG-05-21                                              June 2005
                                                                       Office of
                                                                              of Inspector Gener
                                                                                           Generaal

                                                                       U.
                                                                       U.S.
                                                                          S. De
                                                                             Depar
                                                                                partment
                                                                                   tment of Homeland Sec
                                                                                                     Security
                                                                       Washington, DC 20528




                                               Preface

The Departme
     Department of Home
                    Homeland Secu
                               Security
                                     rity (DHS) Office of Inspector General (OIG) w   waas established by
the Hom
    Homeeland Security Act of 2002 (Public Law 107-296)
                                                   107-296) by amendm
                                                                 amendmeent to the Inspector General
Act of 1978. This is one of a series of audit, inspection,
                                               inspection, investigative, and special reports prepared
by the OIG as part of its DHS oversight responsibility
                                           responsibility to promote economy, effectiveness and
efficiency within the departm
                      department.
                              ent.

This report represents a public summ
                                 summary of our limited
                                                  limited official use report assessing Customs
                                                                                        Customs and
Border Protection’
         Protection’s cont
                      controls ov
                               over
                                 er the
                                    the export of chem
                                                  chemical
                                                       ical and biological commodities.
                                                                            commodities. Our findings
were based on selected tests, interviews
                               interviews with employees
                                                employees and officials
                                                                officials of relevant agencies and
institutions, direct observations, and a review of applicable docume
                                                               documents.

The recommendation contained in this report has been developed to the best knowledge available to
the OIG, and has been discussed in draft with appropriate
                                                   appropriate m
                                                               managem
                                                                anagement
                                                                        ent officials.
                                                                            officials. It is our hope that
this report will result
                 result in more eeffective,
                                  ffective, efficient, and economi
                                                           economical
                                                                  cal op
                                                                      operatio
                                                                         erations.
                                                                               ns. W
                                                                                   Wee express our
appreciation to all of those who contributed
                                   contributed to the preparation of this report.




                                               Richard L. Sk
                                                          Skinner
                                               Acting Inspector General
Introduction
In response to the National Defense Authorization Act that requires the review of the controls over
the export of militarily sensitive technologies to countries and entities of concern, we assessed the
Bureau of Customs and Border Protection’s (CBP) enforcement practices at U.S. ports of exit. This
review is part of a series of interagency OIG reviews on the transfer of militarily sensitive
technologies1. In concert with the interagency audit objective to assess whether the current export
licensing process can help deter the proliferation of chemical and biological commodities, we
evaluated the department’s enforcement practices to determine whether they are in place and
working effectively to prevent the illegal export of chemical and biological commodities. Following
is an abbreviated, public version of our report.

Background
The United States (U.S.) controls the export of dual-use2 commodities and munitions3 under the
authority of several laws, primarily the Export Administration Act of 1979 and the Arms Export
Control Act of 1976. CBP is responsible for enforcing licensable export controls for both the
Department of Commerce (Commerce) and the Department of State (State) through authority
provided in the Export Administration Regulations (EAR)4 and the International Traffic in Arms
Regulations (ITAR).5 Certain chemical and biological commodities are subject to the licensing
requirements contained in the EAR for dual-use, which Commerce issues, or the ITAR for
munitions, which are issued by State. ITAR defines a chemical agent as a substance having military
application, which by its ordinary and direct chemical action produces a powerful physiological
effect. ITAR further defines a biological agent or biologically derived substances as those capable
of producing casualties in humans or livestock, degrading equipment, or damaging crops, and which
have been modified for the specific purpose of increasing such effects.

The Arms Export Control Act 6 authorizes the President to control the import and export of defense
articles and defense services. This authority has been delegated to the Secretary of State, and is
administered by State’s Directorate of Defense Trade Controls, which approves and issues licenses
for the export of munitions. To legally ship commodities represented on the State Department’s
United States Munitions List (a list of munitions and associated commodities requiring a license), an
exporter must be issued an export license administered by the Directorate of Defense Trade
Controls. To legally export dual-use items subject to the EAR, an exporter must obtain a license


1
  Section 1402 of the National Defense Authorization Act (NDAA) for Fiscal Year 2000, Public Law 106-65 requires
annual interagency reviews of the transfer of militarily sensitive technologies to countries and entities of concern by the
OIGs at the Departments of Commerce, Defense, Energy and State, and in consultation with the Director of the Central
Intelligence Agency and the Director of the Federal Bureau of Investigation.
2
  Dual-use commodities are goods and technology items that have both military and civilian application.
3
  Munitions are defense articles or technical data.
4
  Title 15 Code of Federal Regulations (CFR), Part 758.7
5
  Title 22 CFR Part 127.4
6
  Title 22 United States Code Section 2778


                           Controls Over the Export of Chemical and Biological Commodities

                                                      Page 1
from Commerce’s Bureau of Industry and Security, which enters all license information
electronically into Commerce’s Export Control Automated Support System.
As the enforcement arm at U.S. ports for both State and Commerce, CBP is responsible for ensuring
that licensable exports, via their Outbound program, in this case chemical and biological
commodities, are processed in accordance with applicable laws and regulations. CBP uses the
Bureau of Immigration and Customs Enforcement’s Exodus Command Center (ECC) as a liaison
with State and Commerce to answer questions that may arise as to whether a shipment is licensable,
and CBP officers are directed to send any such questions to the ECC for resolution.

CBP Enforcement Practices
CBP does not consistently enforce federal export licensing laws and regulations at all U.S. ports of
exit. CBP’s ability to effectively and efficiently control exports licensed by State and Commerce is
limited by inadequate information and staff resources.

CBP does not consistently document the location of State Licenses in its Automated Export System.
Exporters physically lodge State licenses with CBP at the port where shipments are expected
primarily to occur; however, exports may be made through any authorized U.S. port of exit. Such
license information is necessary to determine whether an individual shipment is being made in
compliance with the associated license conditions. When a port receives notification of an export to
be shipped against a license lodged at another port, enforcement personnel must locate the port of
lodging and verify the authenticity of the export information to the original license. However, CBP
is not required to document the location of State licenses in the Automated Export System, which
makes it difficult for enforcement personnel at the port of shipping to readily obtain license
information. As a result, CBP’s ability to enforce State licensed exports in a timely and efficient
manner is reduced.

Also, CBP needs to improve its enforcement of license requirements for shipments that have been
processed against Commerce licenses.

We recommended that the Commissioner of CBP evaluate the Outbound program, including
information requirements, staffing needs, and consistency of enforcement practices, and make
adjustments necessary to ensure that all of CBP’s enforcement responsibilities are accomplished.




                      Controls Over the Export of Chemical and Biological Commodities

                                               Page 2
Appendix 1
Major Contributors to this Report



Alexander Best Jr., Director, Border and Transportation Security
Ethel Taylor-Young, Audit Manager
Joseph L. Hardy Jr., Auditor-In-Charge
Gary Alvino, Management Analyst
Marshall Toutsi, Senior Auditor
Nadine F. Ramjohn, Senior Auditor




Controls Over the Export of Chemical and Biological Commodities

                            Page 3
Appendix 2
Report Distribution


Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
General Counsel
Executive Secretariat
Assistant Secretary, Public Affairs
Under Secretary, Border and Transportation Security
Commissioner, Bureau of Customs and Border Protection
Assistant Secretary, Bureau of Immigration and Customs Enforcement
Director, Bureau of Citizenship and Immigration Services
DHS GAO/OIG Liaison
DHS OIG Liaison, ICE
DHS OIG Liaison, CIS
DHS Public Affairs

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees as Appropriate




Controls Over the Export of Chemical and Biological Commodities

                            Page 4
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
